No.

3n tfje
Supreme Court of tfje;
®ntteb i£>tate3

V ... '

THOMAS F. SWEENEY,
Petitioner,

filed
NOV 11 -019

V.

MERIT SYSTEMS PROTECTION BOARD
Respondent.
On Petition for Writ of Certiorari
to the United States Court ofAppeals for the Fourth
Circuit
PETITION FOR WRIT OF CERTIORARI
Thomas F. Sweeney
Petitioner Pro Se
7083B Jasper Dr
Middletown, MD 21769
Phone: (804) 457-8868
Thomas@reddn.com

Received
NOV 14 2019

QUESTIONS PRESENTED
The FAA is generally exempted from the Title 5
Personnel Management System, yet FAA employees
MSPB Appeal rights are retained. FAA’s employment
policy of an Air Traffic Control Specialist - In Training
(ATCSTT) whose training was terminated by their Air
Traffic Manager (ATM) due to unacceptable
performance requires the employee be immediately
placed on administrative duties. Through a
subsequent process— a national group of FAA officials
decide if the employee will be retained as an ATCSTT
at a different FAA facility with a lower grade and pay,
or initiate separation from Federal Service. If the
national group of FAA officials decide to retain the
ATCSTT at a lower grade/pay position, the ATCSTT
is given a list of 5 or less different facilities to choose
from. If the ATCSTT does not choose a facility in the
list given to the ATCSTT— per FAA employment
policies FAA HRPM 1.14a— the FAA will initiate
separation from Federal Service.
The questions present are:
1. Is a final decision to terminate the training of a
FAA Air Traffic Control Specialist — In Training
employee by FAA management— a reduction in grade
or removal action based on unacceptable performance,
or a major adverse personnel action that is appealable
to the Merit Systems Protection Board.
If no: in the case the ATCSTT is not retained by
the FAA’s national group of officials or fails to select a

• ii

QUESTIONS PRESENTED- Continued
lower/grade pay facility— during the separation from
Federal Service procedures can the ATCS-IT
re-challenge the final decision to terminate their
training as an ATCS-IT
2. Does subjecting a non-probationary Federal
employee to the effects of a proposed action— before
the employee responds— violate due process by failing
to allow a meaningful opportunity to respond to the
action as held in Cleveland Bd. ofEduc. v. Loudermill,
470 U.S. 532 (U.S. 1985)?
3. If an appellant/plaintiff of a MSPB mixed case
fails to allege a Title VII discrimination claim in a
district court complaint— is the appropriate venue for
judicial review the Federal Circuit, or the district
court?
4. The district court’s initial complaint lacked a
specific Title VII discrimination claim, yet the
complaint was listed as ‘filed under’ the Title VII in
the opening statement as required under 5 U.S.C §
7703 (b) (2). Should the district court have liberally
construed the pro se plaintiffs intent was to include a
Title VII discrimination count?

Ill

PARTIES TO THE PROCEEDING
Petitioner Thomas F. Sweeney was the appellant
in the Merit Systems Protection Board proceedings,
petitioner in the court of appeals for the federal circuit
proceedings, plaintiff/petitioner in the district court
proceedings, and petitioner in the court of appeals for
the fourth circuit proceedings. Respondent the Merit
Systems Protection Board were the respondent after
recaptioning in the court of appeals proceedings,
respondent/defendant
in
the
district
court
proceedings, and respondent in the court of appeals
for the fourth circuit proceedings. The Department of
Transportation was the agency in the Merit Systems
Protection Board proceedings, and the respondent
before being recaptioned in the court Of appeals for the
federal circuit proceedings.
RELATED CASES
•

Sweeney v Department of Transportation,
No. DC-0752-15-0060-1-1, U.S. Merit
Systems Protection Board. Initial Decision
Judgement entered April 12, 2016.
• Sweeney v Department of Transportation,
No. DC-0752-15-0060-1-1, U.S. Merit
Systems Protection Board. Final Order
entered September 23, 2016.
• Sweeney v. Merit Systems Protection
Board, recaptioned from Sweeney v.
Department of Transportation, No. 171255, U.S. Court of Appeals for the Federal
Circuit, Judgement Entered August 16,
2017.

IV

RELATED CASES- Continued
•

•

Sweeney v. Merit Systems Protection
Board, No. B17-cv-926, U.S. District Court
for the Eastern District of Virginia.
Judgement entered March 13, 2018.
Sweeney v. Merit Systems Protection
Board, No. 18-1458, U.S. Court of Appeals
for the Fourth Circuit. Judgement Entered
June 14, 2019.

V

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED...........

1

PARTIES TO THE PROCEEDING

m

RELATED CASES

m

TABLE OF CONTENTS

v

TABLE OF AUTHORITIES
PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUORY PROVISIONS
INVOVLED

2

INTRODUCTION

8

STATEMENT OF THE CASE..........................

10

A. Statutory History..................................

10

B. Factual & Procedural Background......

12

REASONS FOR GRANTING THE PETITON

21

I.

When the FAA Terminates the Training of an
ATCS'IT for Unacceptable Performance, the
FAA is Required to Follow the Procedures in
5 U.S.C. § 4303
21
A. Over Six hundred FAA Employee’s Per
Year are not being Informed of or
Allowed to Pursue their MSPB Appeal
Rights After Having Their Training

VI

Terminated
for
Unacceptable
Performance
23
II.
The Fourth Circuit Failed to Consider That
Subjecting an Employee to the Effects of a
Proposed Action, Before the Employee
Responds is Coercion and Violates the
Employees Due Process Rights as Held in
Cleveland Bd. ofEduc. v. Loudermill
24
III.
A Circuit Split Where the Court of Appeal for
the Fourth Circuit and the Court of Appeals for
the Federal Circuit Have Ruled They Retain
Jurisdiction and Venue over MSPB Mixed-case
Appeals Where the Discrimination Claim is
Waived or Not Asserted
25
IV.
The District Court Erred by not Liberally
Construing
Petitioner’s
Complaint
for
Discrimination
26
CONCLUSION..........
27

vii
TABLE OF CONTENTS - Continued
Page

APPENDIX TABLE OF CONTENTS
Unpublished Opinion of the Fourth Circuit
(June 14, 2019)..........................................

App. la

Order of the District Court of Eastern Virginia
Denying Reconsideration
(April 24, 2019)
App. 21a
v

Order of the District Court of Eastern Virginia
Granting Motion to Dismiss
(March 13,2019)
App. 22a
Order of the Federal Circuit Ordering Transfer To
District Court (August 8, 2017)
App. 26a
Final Order of the Merit Systems Protection Board
(September 26, 2016)
App. 35a
Initial Decision of the Merit Systems Protection
Board (April 12, 2016)
App. 49a
Order of the Fourth Circuit Denying Petition for
Rehearing (August 13, 2019)
App. 70a
Petitioner/Plaintiff Petition for Rehearing to the
Fourth Circuit (July 29, 2019)
App. 71a

i

viii
TABLE OF AUTHORITIES
Page
CASES
Cleveland Bd. of Educ. v. Loudermill, 470 U.S. 532
(U.S. 1985)
ii, 24
United States v. Fausto, 484 U.S. 439, U.S. Supreme
21
Court (1988)
Gaudette v. Department of Transportation, 832 F.2d
1256. Fed. Cir. 1987
21, 22
CONSTITUTIONAL PROVISIONS

STATUTES
5 U.S.C. § 4303 ............
5U.S.C. § 7121............
5 U.S.C. § 7513............
5 U.S.C. § 7703 ...........
42 U.S.C. § 2000e-2(a)(l)
49 U.S.C. § 40122 ........

2, 3, 4, 11, 19, 21, 22
..................... 3, 22
4
ii, 5, 7, 18, 26
... ii, 6, 18, 26
.......... 7, 12

JUDICIAL RULES
Federal Rule of Civil Procedure 12

8, 18, 19

Federal Rule of Civil Procedure 56

20

PUBLICATIONS

1
PETITION FOR WRIT OF CERTIORARI
Thomas F. Sweeney respectfully petitions for a
writ of certiorari to review the judgement of the
United State Court of Appeals for the Fourth Circuit.
OPINIONS BELOW
The Fourth Circuit’s opinion is reported at
Sweeney v. Merit Sys. Prot. Bd., 2019 U.S. App.
LEXIS 17930 (4th Cir. 2019) (June 14, 2019) and is
reproduced at Pet. App. la-20a. The district court’s
denial for reconsideration is reproduced at Pet. App.
21a. The district court’s opinion (March 13, 2019) is
reproduced at Pet. App. 22a-25a. The Merit Systems
Protection Board final order is reproduced at Pet. App.
35a_48a. The Merit Systems Protection Board initial
decision is reproduced at Pet. App. 49a-69a. The
Fourth Circuit’s denial of rehearing (August 13, 2019)
is reproduced at Pet. App. 70a.
JURISDICTION
The Fourth Circuit Court of Appeals denied
Sweeney’s timely petition for rehearing on August 13,
2019 (Pet. App. 70a). This Court has jurisdiction
under 28 U.S.C. § 1254(l).

2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOVLED
•

5 U.S.C. § 4303
The Civil Service Reform Act, 5 U.S.C. .§ 4303- sections’ (a)
(c) [Actions based on
unacceptable performance] provide:
(a) Subject to the provisions of this section, an
agency may reduce in grade or remove an
employee for unacceptable performance
(b) (l) An employee whose reduction in grade or
removal is proposed under this section is
entitled to— (A) 30 days’ advance written notice
of the proposed action which identifies— (i)
specific instances of unacceptable performance
by the employee on which the proposed action
is based; and (ii) the critical elements of the
employee’s position involved in each instance of
unacceptable performance; (B) be represented
by an attorney or other representative; (C) a
reasonable time to answer orally and in
writing; and (D) a written decision which— (i)
in the case of a reduction in grade or removal
under this section, specifies the instances of
unacceptable performance by the employee on
which the reduction in grade or removal is
based, and (ii) unless proposed by the head of
the agency, has been concurred in by an
employee who is in a higher position than the

3

employee who proposed the action. (2) An
agency may, under regulations prescribed by
the head of such agency, extend the notice
period under subsection (b)(1)(A) of this section
for not more than 30 days. An agency may
extend the notice period for more than 30 days
only in accordance with regulations issued by
the Office of Personnel Management.
(c) The decision to retain, reduce in grade, or
remove an employee— (l) shall be made within
30 days after the date of expiration of the notice
period, and (2) in the case of a reduction in
grade or removal, may be based only on those
instances of unacceptable performance by the
employee— (A) which occurred during the 1year period ending on the date of the notice
under subsection (b)(1)(A) of this section in
connection with the decision; and (B) for which
the notice and other requirements of this
section are complied with.
• 5 U.S.C. § 7121 (e)
The Civil Service Reform Act, 5 U.S.C. .§ 7121
(e) [Grievance procedures] provides^
(e) (l) Matters covered under sections 4303 and
7512 of this title which also fall within the
coverage of the negotiated grievance procedure
may, in the discretion of the aggrieved
employee, be raised either under the appellate
procedures of section 7701 of this title or under
the negotiated grievance procedure, but not

4

both. Similar matters which arise under other
personnel systems applicable to employees
covered by this chapter may, in the discretion of
the aggrieved employee, be raised either under
the appellate procedures, if any, applicable to
those matters, or under the negotiated
grievance procedure, but not both. An employee
shall be deemed to have exercised his option
under this subsection to raise a matter either
under the applicable appellate procedures or
under the negotiated grievance procedure at
such time as the employee timely files a notice
of appeal under the applicable appellate
procedures or timely files a grievance in writing
in accordance with the provisions of the parties’
negotiated grievance procedure, whichever
event occurs first. (2) In matters covered under
sections 4303 and 7512 of this title which have
been raised under the negotiated grievance
procedure in accordance with this section, an
arbitrator shall be governed by section
7701(c)(1) of this title, as applicable.
• 5 U.S.C. § 7513 (b)
The Civil Service Reform Act, 5 U.S.C. .§ 7513
(b) [Cause and procedure (Removal, Suspension
for more than 14 days, reduction in grade or
pay...)] provides^
(b) An employee against whom an action is
proposed is entitled to— (l) at least 30 days’
advance written notice, unless there is

5

reasonable cause to believe the employee has
committed a crime for which a sentence of
imprisonment may be imposed, stating the
specific reasons for the proposed action; (2) a
reasonable time, but not less than 7 days, to
answer orally and in writing and to furnish
affidavits and other documentary evidence in
support of the answer;(3) be represented by an
attorney or other representative; and(4) a
written decision and the specific reasons
therefor at the earliest practicable date.
• 5 U.S.C. § 7703 (b)
The Civil Service Reform Act, 5 U.S.C. .§7703
(b) [Judicial review of decisions of the Merit
Systems Protection Board] provides:
(b) (l) (A) Except as provided in subparagraph (B)
and paragraph (2) of this subsection, a petition
to review a final order or final decision of the
Board shall be filed in the United States Court
of Appeals for the
Federal
Circuit.
Notwithstanding any other provision of law,
any petition for review shall be filed within 60
days after the Board issues notice of the final
order or decision of the Board. (B) A petition to
review a final order or final decision of the
Board that raises no challenge to the Board’s
disposition of allegations of a prohibited
personnel practice described in section 2302(b)
other than practices described in section
2302(b)(8), or 2302(b)(9)(A)(i), (B), (C), or (D)

6

shall be filed in the United States Court of
Appeals for the Federal Circuit or any court of
\
appeals
of
competent
jurisdiction.
Notwithstanding any other provision of law,
any petition for review shall be filed within 60
days after the Board issues notice of the final
order or decision of the Board. (2) Cases of
discrimination subject to the provisions of
section 7702 of this title shall be filed under
section 717(c) of the Civil Rights Act of 1964 (42
U.S.C. 2000e-16(c)), section 15(c) of the Age
Discrimination in Employment Act of 1967 (29
U.S.C. 633a(c)), and section 16(b) of the Fair
Labor Standards Act of 1938, as amended (29
U.S.C. 216(b)), as applicable. Notwithstanding
any other provision of law, any such case filed
under any such section must be filed within 30
days after the date the individual filing the case
received notice of the judicially reviewable
action under such section 7702.
• 42 U.S.C. § 2000e-2(a)(l)
The Civil Rights Act of 1964, 42 U.S.C. § 2000e2(a)(1) [Unlawful employment practices]
provides^
(a) Employer practices
It shall be an unlawful
employment practice for an employer— (l) to
fail or refuse to hire or to discharge any
individual, or otherwise to discriminate against
any
individual
with
respect
to
his
compensation, terms, conditions, or privileges

7

of employment, because of such individual’s
race, color, religion, sex, or national origin; or
• 49 U.S.C. § 40122 (g) (2) (H) & (g) (3)
The Wendell H. Ford Aviation Investment and
Reform Act for the 21st Century, 49 U.S.C. §
40122 (g) (2) (H) & (g) (3) [Federal Aviation
Administration
personnel
management
system] provides ^
(g) Personnel management System.(2) Applicability of title 5.—The provisions of
title 5 shall not apply to the new personnel
management
system
developed
and
implemented pursuant to paragraph (l), with
the exception of—
(H) sections 1204, 1211-1218, 1221, and 77017703, relating to the Merit Systems
Protection Board;
(3) Appeals to merit systems protection board.—
Under the new personnel management system
developed and implemented under paragraph
(l), an employee of the Administration may
submit ah appeal to the Merit Systems
Protection Board and may seek judicial review
of any resulting final orders or decisions of the
Board from any action that was appealable to
the Board under any law, rule, or regulation as
of March 31, 1996. Notwithstanding any other
provision of law, retroactive to April 1,1996, the
Board shall have the same remedial authority

8

over such employee appeals that it had as of
March 31, 1996.
INTRODUCTION
This case finally comes to this Court after many
years of proceedings by lower courts. I would not have
continued with these proceedings if I did not believe
they were not proper and not in accordance with
regulations. Through the years of this case, I have
spent hundreds of hours researching laws and writing
briefs, along with $15,000 on counsel after the fourth
circuit requested formal briefs. Unfortunately, my
counsel at the time did not argue the merits of the
judicial review, but mainly focused on arguing that it
should have been a summary judgement order,
instead of a F.R.C.P. Rule 12 (b) (6). Even at the oral
arguments, the fourth circuit panel seemed interested
in the merits contained in the informal brief, yet
counsel did not have a meaningful answer to the direct
questions on merit.
After oral arguments, Sweeney requested his
counsel to withdraw. Immediately after, now pro se,
Sweeney filed a Motion for Leave of Court to File Post
Oral Arguments Brief (ECF 51), which was not
intended to be the brief itself— just a list of limited
reasons why it is needed. The fourth circuit panel
construed the request for leave to file a brief as the
brief itself and granted the motion (ECF 52 & 53).

9
In Sweeney’s Motion for Leave of Court to File Post
Oral Arguments Brief (ECF 5l), basically raised 2
issues, (l) Sweeney did not have a meaningful
opportunity to respond to the proposed action of
termination of training, a reasonable person would
have also concluded the decision was already final, as
the April 16th, 2013 memo was vaguely written as a
proposal and effects of the April 16th memo was
immediately implemented against Sweeney. (2) A
decision to terminate an ATCS-IT training requires
the employee to be ultimately removed from their
current position— either by reassignment to a lower
pay/grade facility or by separation from federal
service.
Both of the two above scenarios should be
reviewable by the MSPB. In the case of not having a
meaningful opportunity to respond, both the MSPB
and district court held that because after the decision
to terminate my training was finalized, that the FAA
gave a choice of four (4) different lower level facilities
to choose from, that the choice of the lower level
facilities made it a voluntary action. This offer by the
FAA, came after I attempted to redress my issues with
the ATM in my request for reconsideration to him on
August 7th, 2013, which the ATM initially did not
respond to. As for the point that termination of
training is not an appealable action— the FAA can not
deny that an ATCSTT is not allowed to stay employed
if they do not transfer. Even if an ATCSTT who had
their training terminated did not select from a list of

10
facilities offered by the FAA, there are no procedures
allowed for the ATCS-IT to re-enter training,
requiring the employee to be removed.
. The fourth circuit court of appeals panel’s
unpublished opinion only considered Sweeney’s
counsel’s arguments contained in the formal brief,
without ever addressing his arguments contained in
either the informal brief, or his post argument
supplemental brief. Basically put, the fourth circuit
seemed interested in the content of the informal brief,
but since Sweeney’s counsel failed to raise the claims
in the formal brief, Sweeney believes the court
stopped listening.
STATEMENT OF THE CASE
A.

Statutory Background
Congress passed the Civil Service Reform Act of
1978 (CSRA), Pub.L. 95—454, to reform the
administration of the civil service employees. The
CRSA established the Merit Systems Protection
Board— an independent quasi-judicial agency. The
MSPB has the power adjudicating appeals by
employees (or its beneficiaries in some cases)
regarding
prohibited
personnel
practices,
Whistleblower Protection Act, Uniformed Services
Employment and Reemployment Rights Act, Civil
Service Retirement system, Federal Employees’
Retirement System, and major adverse personnel
action.

11
A major adverse personnel action is codified at 5
U.S.C. § 7512, which include removal, suspension for
more than 14 days, reduction in grade, reduction in
pay, or a furlough of 30 days or less. Even if an action
meets one of the above mentioned actions, there are
instances where MSPB appeal rights are not
applicable. If the action is a reduction in grade or
removal under 5 U.S.C. § 4303 “Actions based on
unacceptable performance” it is not normally
appealable to the MSPB— although the agency must
follow the procedures contained in 5 U.S.C. § 4303.
If an action is based on 5 U.S.C. § 4303, or
unacceptable performance, the CRSA, at 5 U.S.C. §
4303 (b) (l) gives a list of entitlements — 30 days
advanced written notice of the proposed action that
gives specific instances of unacceptable performance
and the critical elements of the employee’s position
involved of the unacceptable performance, be
represented by an attorney or other representative, a
reasonable time to answer orally and in writing, and
a written decision that specifies the unacceptable
performance by the employee with the final decision
being by an employee who is in a higher position
(unless head of the agency) than the employee who
proposed the action.
After the implantation of the CRSA in 1979, FAA
Air Traffic Control Specialist were competitive service
Title 5 employees. In 1995 Congress passed the
Department of Transportation and Related Agencies
Appropriations Act, 1996, Pub.L. No. 104-50, § 347,

12
109 Stat. 436, 460 (1995), as amended by Pub.L. No.
104-122, § 1, 110 Stat. 876, 876 (1996) ("DOT Act").
The DOT act exempted the FAAfrom most of the Title
5 Personnel Management System (PMS), including
the MSPB and directed the FAA to establish its own
for its ‘unique demands’. See49 U.S.C. § 40122 (g).
DOT Act required the FAA to implement the PMS
by January 1st, 1996, yet the FAA did not implement
the FAA PMS until April 1st, 1996.
In April of 2000, Congress passed Wendell H.
Ford Aviation Investment and Reform Act for the 21st
Century (“Ford Act”) Pub.L. No. 106-181 which among
other things, allows FAA employees under the FAA
PMS to appeal to the MSPB with the same remedial
authority that the MSPB had on March 31st, 1996,
which is before the FAA PMS was implemented. See
at 49 U.S.C. § 40122 (g)(3).
B.

Factual & Procedural Background
Sweeney began his employment with the FAA
after passing various pre-employment aptitude test on
August 5th, 2009 at the Mike Monroney Aeronautical
Center in Oklahoma City, OK. After successfully
completing all of the requirements of initial en route
air traffic control classes Sweeney was assigned to the
Washington Air Route Traffic Control Center
(Washington Center) in Leesburg, VA. After being
certified on 3 of the 6 sectors required to become a full
performance level controller— a full performance
level controller is a synonym for a certified

13
professional controller, which means the controller
successfully completed training as an ATCS—
Sweeney’s training was delayed due to a re-alignment
of airspace where other Full Performance Level
controllers needed to be trained on different sectors in
their realigned area of specialty. After the
realignment, Sweeney as assigned a new trainer, who
had minimal training experience. This trainer and
Sweeney began to have difficulties in training.
Sweeney made a request to Travis Febelkorn
(Febelkorn), Sweeney’s supervisor, to have a different
trainer as the trainer was improperly documenting
the training. The Febelkorn denied the request for a
change in the trainer. Sweeney had his training
suspended pending a training review board (TRB) on
November 1st, 2012. A TRB’s job is to individually
interview the ATCS’IT, their instructors, and
supervisor— then complies a report of statements and
makes a recommendation to the ATM. The ATM
makes the determination to re-enter the ATCSTT in
training, or to terminate the training of the ATCSTT.
FAA management is required to do monthly skill
assessments, and benchmarks at 25%, 50%, 75% of
target hours. On November 3rd, 2012 after review of
the paperwork for the TRB, Febelkorn forced Sweeney
to sign a back dated ‘recreation’ of a skill check
assessments and benchmark due to Febelkorn failing
to properly conduct the required skill check
assessments and benchmarks. On January 8th, 2013
Sweeney re-entered on the job training under highly

14
restricted non-standard provisions with Febelkorn
assigned as supervisor. Typically, after a TRB, a
trainee is assigned a different supervisor.
On February 22nd, 2013 Febelkorn suspended
Sweeney’s training. During a suspension of training,
an ATCSTT is allowed to perform air traffic control
duties, but only certain functions. The TRB
recommended
termination
of
training
but
reassignment to a lower level facility.
On April 16th, 2013 Sweeney was given the April
15th, 2013 memorandum by ATM Steven Stooksberry
Subject: “Discontinuation of Training” by Washington
Center training manager Raymond Mittan (Mittan).
(JA 051). Sweeney was instructed by Mittan that he
was hereby assigned to administrative duties,
required to work an administrative schedule, and no
longer allowed to perform air traffic duties pending
outcome of the National Employee Services Team
(NEST)— who decide if an ATCSTT is retained at a
lower level/pay facility, or separated from federal
service.
It is required by FAA facility administration and
training procedures that an ATCSTT whose training
is terminated, is not allowed to perform air traffic
duties. FAA ZDC Order 3120.8. Once an ATCSTT
training is suspended, the only outcome is either
reassignment to a lower grade/pay facility, or
separation from federal service. FAA policies and
procedures preclude any other outcome.

15
Sweeney reasonably believed the decision was
already made, and the comments requested by the
memo from ATM Stooksberry dated April 15th, 2013
was only a deciding factor if the ATM would
recommend if the ATCSTT should be retained by the
NEST. On April 23rd, 2013 Sweeney submitted
comments requesting ATM Stooksberry’s help in
being retained with the FAA.
ATM Stooksberry recommended to the NEST that
Sweeney be reassignment to a lower grade/pay
position.
On August 7th, 2013 after reviewing the training
procedures, Sweeney requested reconsideration of
ATM Stooksberry’s decision to terminate his training
and continue his training in a different area of
specialization based on 23 policies and procedures not
being followed during his training. (JA 105) ATM
Stooksberry orally responded by saying FAA policies
and procedures do now allow him to reconsider the
decision to terminate my training since the NEST
already has the paperwork.
On August 22, 2013 Sweeney was notified by
memorandum from Joseph Robert,
Position
Management Specialist for the Eastern Service
Center, Subject: Article 61 Job Search, that I am being
retained at a lower pay/grade facility, but I am given
the choice between three (3) facilities, Cape TRACON
in Falmouth, MA, Atlantic City, NJ Tower, or
Allentown, PA Tower and a response is required
within 7 days. With the assistance of the National Air

16
Traffic Controllers Association, acting as the sole
bargaining unit union, my time to respond to the
August 22, 2013 memo was extended via
memorandum received on August 29th, 2013 by
Gregory Ricketts, Staff Manger of Washington Center.
September 3, 2013 Sweeney received a
memorandum from Tereshin White, Position
Management Specialist, Subject: Article 61 Job
Search, which had the same lower grade/pay facilities
as the August 22> 2013 memorandum, but also added
Harrisburg, PA tower. Harrisburg, PA tower is a lower
grade/pay than Washington Center. Sweeney
returned the memorandum stating he was interested
in the Harrisburg, PA tower. The August 22, 2013,
August 29, 2013, and September 3, 2013 memo and
responses are not contained in the Joint Appendix
created by Sweeney’s counsel.
In or around September 2013, Sweeney became
aware of 2 other female ATCSTT whose training was
suspended, but upon review found their monthly skill
assessments and/or benchmarks were missed. Upon
discovering the this, the training manager for
Washington Center directed the supervisors for the
two female ATCSTT to immediately reset their
training hours to conform to the required FAA
training procedures and reenter training. This did not
happen in Sweeney’s case, where instead they
‘recreated’ the documentation showing compliance to
FAA training procedures. It is the FAA policy that a
TRB must occur when an ATCSTT training is

17
suspended. The two female ATCSTT did not proceed
to a TRB as Sweeney did.
On October 15, 2013 Sweeney filed a MSPB
mixed-case appeal alleging removal, reduction of
pay/grade, denial of within grade increase (WIGI), and
denial of promotion based on discrimination of sex.
On October 23, 2014 MSPB Administrative Judge
(AJ) issued an Order to Show Cause why the appeal
should not be dismissed due to the transfer being a
voluntary reduction of grade/pay. On November 2,
2014 Sweeney responded, in the same manner
currently, that the removal from training at
Washington Center was not voluntary. There was no
choice as the decision to terminate my training was
already made and any decision after is tantamount to
a constructive reduction of pay/grade.
In December 2015, Sweeney became a full
performance level ATCS with the FAA.
In December 2015 Sweeney filed a second MSPB
appeal alleging a due process violation as Sweeney
was not afforded the opportunity to respond before
having the effects of the proposal occur. The MSPB AJ
implemented this appeal into the first appeal and
issued an Initial Decision dismissing the appeal on
April 12, 2016 for lack of jurisdiction due to the
reduction of pay/grade being a voluntary action. The
MSPB AJ did not address the due process issue.
Sweeney timely petitioned for review of the full
MSPB in May of 2016. The MSPB in their final order
dated September 26, 2016 denied petition for review,

18
modified the MSPB AJ Initial Decision addressing the
due process claim, yet still affirming the initial
decision for reasons of lack of jurisdiction that the
reduction of pay/grade was voluntary.
Sweeney timely appealed to the Court of Appeals
for the Federal Circuit, due to this Court’s decision in
Perry v. Merit Sys. Prot. Brd., 137 S. Ct. 1975 (2017),
the case was transferred to the district court of
eastern Virginia as this appeal was a mixed-case that
involved a Title VII discrimination claim.
Upon transfer to the district court, the district
court required a complaint from Sweeney. In the
district court complaint listed the complaint being
brought under Title VII and 5 U.S.C. § 7703, but
lacked a specific count or cause of action under Title
VII.
The MSPB filed a Motion to Dismiss under
F.R.C.P. Rule 12 (b) (6). (JA218, Memorandum of Law
IN support of MSPB’s Motion to Dismiss, JA 222)
Sweeney did not respond to the Motion to Dismiss as
Sweeney already knew the position the MSPB would
take, and argued it in the complaint. Sweeney’s
response would have been a cut and paste of the
complaint, and relying on the requirement that the
court’s must consider all pleadings available to the
court, that the district court would take my arguments
from the complaint against the defendants motion to
dismiss.
The district court did not consider my complaint,
with its arguments contained in its order granting the

19
MSPB’s motion to dismiss. Sweeney motion for the
district court to reconsider its order granting motion
to dismiss as it failed to consider argument contained
in my complaint (JA 293). The district court denied
my request for reconsideration (JA 299).
Sweeney timely filed a Notice of Appeal on April
11, 2018 (JA297).
On May 18, 2018 Sweeney filed an informal brief
with the fourth circuit generally raising two issues, (l)
failure of due process, as Sweeney did not receive a
meaningful opportunity to respond before having the
actions contained in the April 15, 2013 memo proposal
taken against him. This made Sweeney believe he
could not challenge the decision. (2) is that
termination of training is an appealable action with
the MSPB as it is a reduction of grade/pay while it is
also an action taken against an employee due to
‘unacceptable performance’ listed in 5 U.S.C. § 4303.
The MSPB submitted their informal brief on June 28,
2018, and Sweeney submitted his reply to the MSPB’s
informal brief on July 18, 2018.
On October 26, 2018 The fourth circuit stated
formal briefs and oral arguments would be beneficial
in deciding the issues at hand, but if I was not
represented by an attorney, oral arguments may not
occur.
Sweeney’s counsel submitted the Brief of
Appellant on December 19, 2018. Sweeney’s counsel
failed to raise any claims contained in his informal
briefs, instead contending the Rule 12 (b)(6) should

20

have been converted to a Rule 56 Summary
Judgement Order. The MSPB filed its formal brief in
February 2019 with Sweeney’s reply on February 22’
2019.
Oral arguments occurred on May 9, 2019. Two of
the judges asked direct questions concerning due
process of termination of training, but Sweeney’s
counsel was unable to answer the question, only
stating ‘that is what we want the chance to argue’ to
the judges.
After spending $15,000 on counsel, Sweeney was
. not able to spend more money to have counsel re-dress
his position. On Sweeney’s request, his counsel filed a
motion to withdrew on May 18, 2019, with the motion
being granted on May 21, 2019.
On May 22, 2019 Sweeney filed a Motion for Leave
of Court to file post oral argument brief, with the same
main issues he has raised in the district court, and
informal briefs, but with limited argument why there
should be a post argument brief. The panel granted
the motion 2 to 1 but construed the motion as the brief
itself.
On June 14, 2019 the fourth circuit issued its
unpublished opinion affirming the district court. The
fourth circuit did not address or show any
consideration in Sweeney’s May 22, 2019 Motion for
Leave of Court to file post oral argument brief.
On July 29, 2019 Sweeney filed a petition for
rehearing restarting the opinion did not consider any
argument contained in either my informal brief or my

21
later May 22, 2019 Motion for Leave of Court to file
post oral argument brief. The panel denied the
petition for rehearing on August 13, 2019.
This Petition for Writ of Certiorari ensues.

REASONS FOR GRANTING THE PETITION

I.

When the FAA Terminates the Training of
an ATCS-IT for Unacceptable Performance,
the FAA is Required to Follow the
Procedures in 5 U.S.C. § 4303
This court has not ruled on a case that involves 5
U.S.C. § 4303 since United States v. Fausto, 484 U.S.
439 (1988) where the primary argument was related
to back pay. This court has not ruled addressed if the
FAA’s procedures involving termination of training for
unacceptable performance are appealable by the
MSPB.
The procedures used by the FAA in dealing with
the termination of training of Air Traffic Control
Specialist — In Training has ever been evolving. The
current most controlling case law is Gaudette v.
Department of Transportation, 832 F.2d 1256. Fed.
Cir. 1987 where the sole issue was if failure to inform
the employee of their MSPB rights constituted an
‘un-informed decision’ to accept an agency proposal,
in lieu of termination proceedings.

r

22

One big issue the district court, and court of
appeals for the fourth circuit is their over reliance in
the opinion in Gaudette, where the Federal Circuit
was not considering the merits of the case, as
Gaudette had already filed a grievance in regard to
their training.
The CSRA required an election of forum, either a
negotiated grievance procedure, or appellate
procedures with the MSPB, but not both
Matters covered under sections 4303 and
7512 of this title which also fall within the
coverage of the negotiated grievance
procedure may, in the discretion of the
aggrieved employee, be raised either under
the appellate procedures of section 7701 of
this title or under the negotiated grievance
procedure, but not both. Similar matters
which arise under other personnel systems
applicable to employees covered by this
chapter may, in the discretion of the
aggrieved employee, be raised either under
the appellate procedures, if any, applicable
to those matters, or under the negotiated
grievance procedure, but not both.
5 U.S.C. § 7121 (e)(l). Civil Service Reform Act of
1978 § 701.
The Federal Circuit in Gaudette would not even
have the ability to review the merits of their training
since they filed the grievance regarding their training.

23

Without the ability to review the FAA’s decision to
terminate Gaudette’s training, their decision to
otherwise accept other employment was voluntary.
A. Over Six hundred FAA Employee’s Per
Year are not being Informed of or
Allowed to Pursue their MSPB Appeal
Rights After Having Their Training
Terminated
for
Unacceptable
Performance
As of July 2019 the FAA's Priority Placement Tool
(PPT) which gets data from the FAA's Staffing
Workbook (SWB) states the FAA currently has 3,708
ATCS'IT, average training success is 80.6%, and an
average training time of 1.48 years across all FAA Air
Traffic Facilities. This means an average of 900 FAA
Employees will not be successful in training every
1.48 years, or on average 608 employees per year.
As stated above, an employee will be removed from
their position after a decision to Terminate Training.
The FAA has no evidence to the contrary. Only after
this decision is when the FAA offers employee's whose
training was terminated a lower level facility. The
panel must consider how voluntary the action is in
totality given it occurs after Termination of Training.
Appellant believes if this were to be a completely
voluntary action, in lieu of Termination of Training,
the voluntary transfer must occur before a final
decision of Termination of Training.

24

II.

The Fourth Circuit Failed to Consider That
Subjecting an Employee to the Effects of a
Proposed Action, Before the Employee
Responds is Coercion and Violates the
Employees Due Process Rights as Held in
Cleveland Bd. ofEduc. v. Loudermill, 470 U.S.
532 (U.S. 1985)
/
FAA's procedures require an employee whose
training was terminated to be assigned to non­
control duties only. When on non-control duties,
also called administrative duty, the employee is
required to work an administrative schedule, and
report to an administrative supervisor. The
procedure was not contained in the Joint Appendix,
but attached with the fourth circuits Appellants
Motion for Leave of Court to File Post Argument
Brief, Exhibit A. (ECF 51)
Immediately after receiving the purported
proposal of Termination of Training memorandum
on April 16, 2013 (JA 067), the Appellant was
assigned to non-control duties, assigned an
administrative schedule,
and assigned an
administrative supervisor. Appellant, and any
reasonable person would believe the decision of
Termination of Training was already made, and the
air traffic manager wanted the Appellants
comments on if he should be retained at a lower
grade/pay facility or be separated from Federal
Service. Subjecting Appellant to the procedural
actions of a final decision of Termination of

25

Training with still in the 'proposal' stage is highly
prejudicial and created misinformation that the
Appellant relied on when responding on April 23,
2013.
Had Appellant been given a reasonable
opportunity to respond before believing his
Training was Terminated, Appellant's response
would have been brought up numerous issues, as
Appellants request did in his request for
reconsideration on August 7th, 2013 (JA 105-13).
The air traffic manager after receiving the August
7th, 2013 verbally stated request since Training
Termination decision was already made, there was
nothing he could do. In October of 2013 after
Appellant requested a response in writing to the
August 7th request, the air traffic manager responded
on October 30, 2013 while a substantive part of the
response appeared to be an attached addendum not on
FAA letterhead. (JA 115-117)
III.

The Court of Appeal for the Fourth Circuit
erred by not applying this Court’s ruling in
Perry, holding if an MSPB appellant only
asserts rights under CRSA, then judicial review
is exclusively in the Federal Circuit
This courts message was clear in Perry,
"In the CSRA, Congress created the
Merit Systems Protection Board
(MSPB or Board) to review certain
serious personnel actions against
federal employees. If an employee

26

asserts rights under the CSRA only,
MSPB decisions, all agree, are subject
to judicial review exclusively in the
Federal Circuit. §7703(b)(l). — Perry v.
Merit Sys. Prot. Bd., No. 16-399 (June
23, 2017)"
Perry v Merit Systems Protection Bd., 582 U.S.
__ (2017) at 17. '
Although it was not Sweeney’s intent to waive for
fail to properly raise this Title VII discrimination
claim, but if this Court holds that he did, then judicial
review reverts back to the Federal Circuit with
Sweeney abandoning his Title VII discrimination
claim.
IV. The District Court Erred by not Liberally
Construing
Petitioner’s
Complaint
for
Discrimination
The district court and court of appeals for the
fourth circuit held Sweeney’s pro se complaint to a
level which a lawyers complaint is to be held. There is
no doubt the intent of the complaint, and if properly
liberally construed, a court would have ascertained its
intent. This level of liberally reading the complaint
would not have required a complete re-writing.

27

CONCLUSION
For the foregoing reasons, the Court should grant
a writ of certiorari.
Respectfully submitted,
Thomas F. Sweeney
Pro se
7083B Jasper Dr
Middletown, MD 21769
(804) 457-8868
Thomas@reddn.com
November 11, 2019

APPENDIX TABLE OF CONTENTS
Unpublished Opinion of the Fourth Circuit
(June 14, 2019)....................................... App. la
Order of the District Court of Eastern Virginia
Denying Reconsideration
(April 24, 2019)
App. 21a
Order of the District Court of Eastern Virginia
Granting Motion to Dismiss
(March 13,2019)
.App. 22a
Order of the Federal Circuit Ordering Transfer To
District Court (August 8, 2017)
App. 26a
Final Order of the Merit Systems Protection Board
(September 26, 2016)
App. 35a
Initial Decision of the Merit Systems Protection
Board (April 12, 2016)
App. 49a
Order of the Fourth Circuit Denying Petition for
Rehearing (August 13, 2019)
App. 70a
Petitioner/Plaintiff Petition for Rehearing to the
Fourth Circuit (July 29, 2019)
App. 71a

